     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VII
                                                                          601 East 12th Street, Room 0429
                                                                          Kansas City, MO 64106

May 5, 2010

Report Number: A-07-09-00308

Mr. Ron Simmons
Controller
Blue Cross Blue Shield of Kansas
1133 SW Topeka Boulevard
Topeka, KS 66612

Dear Mr. Simmons:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of the Qualified Pension Plan at Blue Cross Blue
Shield of Kansas, a Terminated Medicare Contractor, for the Period January 1, 1993, to
February 29, 2008. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-09-00308
in all correspondence.

                                             Sincerely,




                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Ron Simmons


Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Acting Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL


  REVIEW OF THE QUALIFIED
 PENSION PLAN AT BLUE CROSS
   BLUE SHIELD OF KANSAS,
   A TERMINATED MEDICARE
 CONTRACTOR, FOR THE PERIOD
      JANUARY 1, 1993, TO
     FEBRUARY 29, 2008




                      Daniel R. Levinson
                       Inspector General

                          May 2010
                        A-07-09-00308
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.
Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                           Notices


      THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

  Section 8L of the Inspector General Act, 5 U.S.C. App., requires
  that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

  The designation of financial or management practices as
  questionable, a recommendation for the disallowance of costs
  incurred or claimed, and any other conclusions and
  recommendations in this report represent the findings and
  opinions of OAS. Authorized officials of the HHS operating
  divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Blue Cross Blue Shield of Kansas (Kansas) administered Medicare Part A and B operations
under cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS)
until the contractual relationship was terminated effective February 29, 2008. The closing date
for the Medicare segment was February 29, 2008.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.
Furthermore, in situations such as contract terminations, the Medicare contracts require
contractors to identify excess Medicare segment pension assets/liabilities in accordance with
CAS 413.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into the
Medicare contracts. The Medicare contracts define a segment and specify the methodology for
the identification and initial allocation of pension assets to the segment. Accordingly, the
contracts require Medicare segment assets to be updated for each year after the initial allocation
in accordance with CAS 412 and 413.

Upon the termination of its Medicare contracts, Kansas identified Medicare’s share of the
Medicare segment excess pension liabilities to be $2,706,283.

We performed a prior pension segmentation audit at Kansas (A-07-94-00804, issued
March 9, 1995) which brought the Medicare segment pension assets to January 1, 1993. We
recommended that Kansas decrease its Medicare segment pension assets by $142,715, and as a
result, recognize $4,531,516, as the Medicare segment pension assets as of January 1, 1993.

OBJECTIVE

Our objective was to determine whether Kansas complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

   •   implementing the prior audit recommendation,

   •   updating the Medicare segment’s pension assets from January 1, 1993, to
       February 29, 2008, and

   •   determining Medicare’s share of the Medicare segment excess pension liabilities as a
       result of the termination of the Medicare contracts.




                                                 i
SUMMARY OF FINDINGS

Kansas did not implement the prior audit recommendation and did not always comply with
Federal requirements and the Medicare contracts’ pension segmentation requirements when
updating Medicare segment assets to February 29, 2008. Kansas identified Medicare segment
pension assets of $9,085,222; however, we determined that the Medicare segment pension assets
were $9,467,977 as of February 29, 2008. Furthermore, Kansas did not correctly account for the
2007 contributions made to the pension plan when updating its total company pension assets
from January 1, 2007, through December 31, 2007. As a result of the errors, Kansas understated
the Medicare segment pension assets by $382,755, and the total company pension assets by
$15,000,000, as of February 29, 2008.

In addition, Kansas did not fully comply with Federal requirements in its calculation of
Medicare’s share of the Medicare segment excess pension liabilities associated with the
termination of the Medicare contracts. Kansas computed Medicare’s share of the Medicare
segment excess pension liabilities to be $2,706,283; however, we determined that Medicare’s
share of the Medicare segment excess pension liabilities was $1,864,238 as of
February 29, 2008. Accordingly, we determined that Kansas overstated Medicare’s share of
excess pension liabilities, due to the termination of the Medicare contracts, by $842,045.

RECOMMENDATIONS

We recommend that Kansas:

   •   increase Medicare segment pension assets as of February 29, 2008, by $382,755 and
       recognize $9,467,977 as the Medicare segment pension assets;

   •   increase its total company pension assets as of February 29, 2008, by $15,000,000 and
       recognize $183,793,500 as the total company pension assets; and

   •   decrease Medicare’s share of the Medicare segment excess pension liabilities by
       $842,045 and submit for reimbursement $1,864,238 as Medicare’s share of the excess
       pension liabilities due to the segment closing calculation.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Kansas concurred with the first and second
recommendations; however, it disagreed with our third recommendation. Kansas disagreed with
our calculations to identify the Medicare segment excess pension liabilities, Medicare’s share of
the Medicare segment excess pension liabilities, and our use of February 29, 2008, as the
segment closing date. Kansas’s comments are included in their entirety as Appendix D.




                                                ii
After reviewing Kansas’s comments, we made minor revisions to the calculation of the Medicare
segment excess pension liabilities and the Medicare segment pension assets; however, we
disagreed with Kansas’s comments regarding both the calculation of the Medicare’s share of the
excess Medicare segment pension liabilities and the segment closing date. Accordingly, we
maintain that our findings and recommendations, as modified, are valid.




                                              iii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION..................................................................................................................... 1

          BACKGROUND ............................................................................................................ 1
              Blue Cross Blue Shield of Kansas and Medicare ............................................... 1
              Federal Requirements ......................................................................................... 1
              Pension Segmentation ......................................................................................... 1
              Prior Pension Segmentation Audit Report .......................................................... 1

          OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 2
               Objective ............................................................................................................. 2
               Scope ................................................................................................................... 2
               Methodology ....................................................................................................... 2

FINDINGS AND RECOMMENDATIONS ........................................................................... 3

          PRIOR AUDIT RECOMMENDATION ........................................................................ 4

          UPDATE OF MEDICARE SEGMENT PENSION ASSETS........................................ 4
              Federal Requirements ......................................................................................... 4
              Contributions and Prepayment Credits Understated ........................................... 5
              Benefit Payments Overstated .............................................................................. 5
              Net Transfers Understated .................................................................................. 6
              Earnings Net Expenses Overstated ..................................................................... 6

          TOTAL COMPANY PENSION ASSETS AS OF FEBRUARY 29, 2008 ................... 6
               Federal Requirements ......................................................................................... 6
               Total Company Pension Assets Understated ...................................................... 7

          MEDICARE SEGMENT EXCESS PENSION LIABILITIES ...................................... 7
               Federal Requirements ......................................................................................... 7
               Excess Medicare Segment Pension Liabilities as of February 29, 2008 ............ 8
               Medicare’s Share of Excess Pension Liabilities as of February 29, 2008 .......... 8

          RECOMMENDATIONS ................................................................................................ 9

          AUDITEE COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE .................................................. 9
               Excess Medicare Segment Pension Liabilities ................................................. 10
               Calculation of Medicare’s Share of the Medicare Segment Excess
                Pension Liabilities.......................................................................................... 10
               Segment Closing Date....................................................................................... 11




                                                                     iv
APPENDIXES

 A: STATEMENT OF MARKET VALUE OF PENSION ASSETS FOR BLUE CROSS
    BLUE SHIELD OF KANSAS FOR THE PERIOD JANUARY 1, 1993, TO
    FEBRUARY 29, 2008

 B: EXCESS MEDICARE SEGMENT PENSION LIABILITIES

 C: CALCULATION OF AGGREGATE MEDICARE PERCENTAGE

 D: AUDITEE COMMENTS




                                v
                   Glossary of Abbreviations and Acronyms

CAS      Cost Accounting Standards
CMS      Centers for Medicare & Medicaid Services
FAR      Federal Acquisition Regulation
Kansas   Blue Cross Blue Shield of Kansas
WAV      weighted average value




                                       vi
                                       INTRODUCTION

BACKGROUND

Blue Cross Blue Shield of Kansas and Medicare

Blue Cross Blue Shield of Kansas (Kansas) administered Medicare Part A and B operations
under cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS)
until the contractual relationship was terminated effective February 29, 2008. The closing date
for the Medicare segment was February 29, 2008.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation (FAR), Cost Accounting Standards (CAS), and Medicare
contracts. Furthermore, in situations such as contract terminations, the Medicare contracts
require contractors to identify excess Medicare segment pension assets/liabilities in accordance
with CAS 413.

Federal Requirements

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods. CAS 413 also addresses the determination of segment
assets and liabilities in the event of contract terminations, segment closings, or pension plan
terminations.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into the
Medicare contracts. The Medicare contracts define a segment and specify the methodology for
the identification and initial allocation of pension assets to the segment. Additionally, the
contracts require Medicare segment assets to be updated for each year after the initial allocation
in accordance with CAS 412 and 413. In claiming costs, contractors must follow cost
reimbursement principles contained in the FAR, CAS, and the Medicare contracts.

Upon the termination of its Medicare contracts, Kansas identified Medicare’s share of the
Medicare segment excess pension liabilities to be $2,706,283.

Prior Pension Segmentation Audit Report

We performed a prior pension segmentation audit at Kansas (A-07-94-00804, issued
March 9, 1995) which brought the Medicare segment pension assets to January 1, 1993. The

                                                 1
prior audit found that Kansas overstated the Medicare segment pension assets by $142,715 as of
January 1, 1993. We recommended that Kansas decrease its Medicare segment pension assets by
$142,715, and as a result, recognize $4,531,516, as the Medicare segment pension assets as of
January 1, 1993.

OBJECTIVE, SCOPE AND METHODOLOGY

Objective

Our objective was to determine whether Kansas complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

   •    implementing the prior audit recommendation,

   •    updating the Medicare segment’s pension assets from January 1, 1993, to
        February 29, 2008, and

   •    determining Medicare’s share of the Medicare segment excess pension liabilities as a
        result of the termination of the Medicare contracts.

Scope

We reviewed Kansas’s identification of its Medicare segment; update of Medicare segment
assets from January 1, 1993, to February 29, 2008; and the segment closing calculation as of
February 29, 2008.

Achieving our objective did not require us to review Kansas’s overall internal control structure.
We reviewed controls relating to the identification of the Medicare segment, the update of the
segment’s assets, and the segment closing calculation to ensure adherence to the Medicare
contracts, CAS 412, and CAS 413.

We performed fieldwork at Kansas’s office in Topeka, Kansas, during February 2009.

Methodology

To accomplish our objective, we did the following:

   •    We reviewed the applicable portions of the FAR, CAS, and the Medicare contracts.

   •    We reviewed the annual actuarial valuation reports prepared by Kansas’s actuarial
        consulting firms, which included the pension plan’s assets, liabilities, normal costs,
        contributions, benefit payments, investment earnings, and administrative expenses. We
        used this information to calculate the Medicare segment assets.

   •    We reviewed the Medicare segment closing calculation prepared by Kansas’s actuarial
        consulting firms.

                                                2
     •   We obtained and reviewed the pension plan documents and Department of
         Labor/Internal Revenue Service (IRS) Forms 5500 used in calculating the Medicare
         segment assets.

     •   We interviewed Kansas staff responsible for identifying the Medicare segment to
         determine whether the segment was properly identified in accordance with the
         Medicare contracts.

     •   We reviewed Kansas’s accounting records to verify the segment identification and
         benefit payments made to the Medicare segment.

     •   We reviewed the prior segmentation audit performed at Kansas (A-07-94-00804) to
         determine the beginning market value of assets.

     •   We provided the CMS Office of the Actuary with the actuarial information necessary
         for it to calculate both the Medicare segment pension assets from January 1, 1993, to
         February 29, 2008, and the Medicare segment’s excess pension liabilities as of
         February 29, 2008.

     •   We reviewed the CMS actuaries’ methodology and calculations.

We performed this review in conjunction with our audit of Kansas’s pension costs claimed for
Medicare reimbursement (A-07-09-00309) and used the information obtained during that audit in
this review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

Kansas did not implement the prior audit recommendation and did not always comply with
Federal requirements and the Medicare contracts’ pension segmentation requirements when
updating Medicare segment assets to February 29, 2008. Kansas identified Medicare segment
pension assets of $9,085,222; however, we determined that the Medicare segment pension assets
were $9,467,977 as of February 29, 2008. Furthermore, Kansas did not correctly account for a
2007 contribution made to the pension plan when updating its total company pension assets from
January 1, 2007, through December 31, 2007. As a result of the errors, Kansas understated the
Medicare segment pension assets by $382,755, and the total company pension assets by
$15,000,000, as of February 29, 2008.




                                               3
Appendix A presents details on the Medicare segment’s pension assets from January 1, 1993, to
February 29, 2008, as determined during our audit. Table 1 summarizes the audit adjustment
required to update Medicare segment pension assets in accordance with Federal requirements.

                     Table 1: Summary of Audit Adjustments
                                            Per OIG     Per Kansas                  Difference
 Prior Audit Recommendation                 $4,531,516 $4,673,617                    ($142,101)

 Update of Medicare Segment Assets
   Contributions and Prepayment Credits        11,546,820            11,475,942       $70,878
   Benefit Payments                            16,775,967            18,263,949    $1,487,982
   Transfers                                  (4,109,276)            (3,105,119) ($1,004,157)
   Earnings Net Expenses                        8,838,411              8,868,258    ($29,847)
 Under/(Over)statement of Medicare Pension Segment Assets                            $382,755

In addition, CAS 413 requires a segment closing adjustment to be made in order to recognize
Medicare’s share of the Medicare segment excess pension liabilities as a result of the termination
of the Medicare contracts. Kansas did not fully comply with Federal requirements in its
calculation of Medicare’s share of the Medicare segment excess pension liabilities associated
with the termination of the Medicare contracts. Kansas computed Medicare’s share of the
Medicare segment excess pension liabilities to be $2,706,283; however, we determined that
Medicare’s share of the Medicare segment excess pension liabilities was $1,864,238 as of
February 29, 2008. Accordingly, we determined that Kansas overstated Medicare’s share of
excess pension liabilities, due to the termination of the Medicare contracts, by $842,045.

PRIOR AUDIT RECOMMENDATION

Kansas did not implement the prior audit recommendation (A-07-94-00804) which
recommended that Kansas decrease Medicare segment pension assets by $142,715, and
recognize $4,531,516 of Medicare segment pension assets as of January 1, 1993. Therefore, the
Medicare segment pension assets were overstated by $142,715 as of January 1, 1993. We used
$4,531,516 as the beginning market value of assets for the current audit.

UPDATE OF MEDICARE SEGMENT PENSION ASSETS

Kansas did not always comply with Federal requirements and the Medicare contracts’ pension
segmentation requirements when updating Medicare segment assets to February 29, 2008.

Federal Requirements

The Medicare contracts identify a Medicare segment as:

       … any organizational component of the contractor, such as a division,
       department, or other similar subdivision, having a significant degree of
       responsibility and accountability for the Medicare contract/agreement, in which:

                                                4
               1. The majority of the salary dollars is allocated to the Medicare
                  agreement/contract; or,

               2. Less than a majority of the salary dollars are charged to the Medicare
                  agreement/contract, and these salary dollars represent 40% or more of the total
                  salary dollars charged to the Medicare agreement/contract.

Furthermore, the Medicare contracts state that “… the pension assets allocated to each Medicare
segment shall be adjusted in accordance with CAS 413.50(c)(7).” CAS 413.50(c)(7) requires
that the asset base be adjusted by contributions, permitted unfunded accruals, income, benefit
payments, and expenses. The CAS requires expenses to be allocated among the segments in
proportion to the investment earnings. In addition, CAS 413.50(c)(8) requires an adjustment to
be made for transfers (participants who enter or leave the segment) if the transfers materially
affect the segment’s ratio of pension plan assets to actuarial accrued liabilities.

For plan years beginning on or before March 30, 1995, the CAS requires investment income and
expenses to be allocated among segments in proportion to the beginning-of-year asset value. For
plan years beginning after March 30, 1995, the CAS requires investment income and expenses to
be allocated among segments based on the ratio of the segment’s weighted average value (WAV)
of assets to total company WAV of assets.

Furthermore, CAS 412.50(a)(4) requires that contributions in excess of the pension cost assigned
to the period be recognized as prepayment credits and accumulated at the assumed valuation
interest rate until applied to future period costs. Prepayment credits that have not been applied to
fund pension costs are excluded from the value of assets used to compute pension costs.

Contributions and Prepayment Credits Understated

Kansas understated contributions and prepayment credits by $70,878 for the Medicare segment.
This understatement occurred because of differences in the Medicare segment assets. These
differences created an incorrect allocation of funding to the Medicare segment. As a result,
Kansas understated contributions and prepayment credits for the Medicare segment by $70,878.

The audited contributions and prepayment credits are based on the assignable pension costs. In
compliance with the CAS, we applied prepayment credits first to current-year assignable pension
costs because the credits were available at the beginning of the year, and then updated any
remaining credits with interest to the next measurement (valuation) date. We then allocated
contributions as needed to assigned pension costs as of the date of deposit.

Benefit Payments Overstated

Kansas overstated benefit payments by $1,487,982 primarily because it incorrectly included a
non-Medicare segment participant’s benefit payment in 2004. Therefore, the Medicare segment
assets were understated by $1,487,982.




                                                 5
Net Transfers Understated

Kansas understated transfers out of the Medicare segment by $1,004,157. The understatement
occurred primarily because of differences in the Medicare segment participants. This
understatement of the net transfer adjustment resulted in an overstatement of the Medicare
segment assets by $1,004,157.

A comparison of Kansas’s and our calculations of net asset transfers from the Medicare segment
appears in Table 2.

                  Table 2: Net Asset Transfer from the Medicare Segment
                                OIG            Kansas        Difference
                   1993            76,304         ($54,665)   ($130,969)
                   1994         (369,422)            39,888       409,310
                   1995         (320,553)         (252,040)        68,513
                   1996         (467,999)         (642,825)     (174,826)
                   1997         (568,128)         (368,540)       199,588
                   1998          (25,225)         (290,978)     (265,753)
                   1999         (446,024)         (441,618)         4,406
                   2000         (151,493)            12,012       163,505
                   2001           745,400            (2,448)    (747,848)
                   2002           214,469         (122,140)     (336,609)
                   2003       (1,123,122)           721,058    1,844,180
                   2004          (13,882)            (9,417)        4,465
                   2005          (72,611)         (537,519)     (464,908)
                   2006         (539,360)          (66,184)       473,176
                   2007       (1,047,630)       (1,089,703)      (42,073)
                   Total      (4,109,276)     ($3,105,119)    $1,004,157

Earnings Net Expenses Overstated

Kansas overstated investment earnings, less administrative expenses, by $29,847 for the
Medicare segment because it (a) did not implement the prior audit recommendation to adjust the
beginning market value of assets as of January 1, 1993, and (b) used incorrect contribution and
prepayment credit amounts, benefit payment amounts, and transfer amounts (all discussed
above) to develop the Medicare segment pension asset base. In our audited update, we allocated
earnings and expenses based on the applicable CAS requirements.

TOTAL COMPANY PENSION ASSETS AS OF FEBRUARY 29, 2008

Federal Requirements

CAS 413.50(c)(7) requires that the asset base be adjusted by contributions, unfunded accruals,
income, benefit payments, and expenses.


                                               6
Total Company Pension Assets Understated

Kansas understated total company pension assets by $15,000,000 because it did not account for a
2007 contribution made to the pension plan when updating its total company pension assets. We
included the contribution in our update of the total company pension assets and determined that
Kansas understated the total company pension assets as of February 29, 2008, by $15,000,000.

MEDICARE SEGMENT EXCESS PENSION LIABILITIES

Federal Requirements

Medicare Contracts

In the event of a contract termination, the Medicare contracts require contractors to follow the
segment closing provision of the CAS. Furthermore, in situations such as contract terminations,
the Medicare contracts require contractors to identify excess Medicare pension liabilities in
accordance with CAS 413.

Cost Accounting Standards

Contract terminations and segment closings are addressed by CAS 413.50(c)(12), which states:

       If a segment is closed, if there is a pension plan termination, or if there is a
       curtailment of benefits, the contractor shall determine the difference between the
       actuarial liability for the segment and the market value of the assets allocated to
       the segment, irrespective of whether or not the pension plan is terminated. The
       difference between the market value of the assets and the actuarial accrued
       liability for the segment represents an adjustment of previously-determined
       pension costs.

       (i) The determination of the actuarial accrued liability shall be made using the
       accrued benefit cost method. The actuarial assumptions employed shall be
       consistent with the current and prior long term assumptions used in the
       measurement of pension costs….

       (ii) … The market value of the assets shall be reduced by the accumulated value
       of prepayment credits, if any. Conversely, the market value of assets shall be
       increased by the current value of any unfunded actuarial liability separately
       identified and maintained in accordance with 9904.412-50(a)(2).

       (iii) The calculation of the difference between the market value of the assets and
       the actuarial accrued liability shall be made as of the date of the event (e.g.,
       contract termination, plan amendment, plant closure) that caused the closing of
       the segment, pension plan termination, or curtailment of benefits. If such a date is
       not readily determinable, or if its use can result in an inequitable calculation, the
       contracting parties shall agree on an appropriate date.

                                                7
       (iv) Pension plan improvements adopted within 60 months of the date of the event
       which increase the actuarial accrued liability shall be recognized on a prorata
       basis using the number of months the date of adoption preceded the event date.
       Plan improvements mandated by law or collective bargaining agreement are not
       subject to this phase-in.

Excess Medicare Segment Pension Liabilities as of February 29, 2008

Kansas identified $2,706,283 in excess Medicare segment pension liabilities as of
February 29, 2008. However, we calculated the excess Medicare segment pension liabilities to
be $1,903,255 as of that date. Therefore, Kansas overstated the excess pension liabilities by
$803,028. The overstatement occurred because Kansas did not fully comply with Federal
requirements in its calculation of the Medicare segment’s excess pension liabilities. Specifically,
Kansas overstated the Medicare segment excess pension liabilities because (a) it understated the
Medicare segment’s final market value of assets (as previously discussed), (b) it did not adjust
the Medicare segment’s final market value of assets by the unfunded actuarial liabilities, and
(c) it did not adjust the final accrued actuarial liabilities by the prorated 2006 plan amendment.
Appendix B shows a comparison of our and Kansas’s calculations of the excess Medicare
segment pension liabilities as of February 29, 2008. The development of the excess Medicare
segment pension liabilities was used to determine Medicare’s share of the Medicare segment
excess pension liabilities below.

Medicare’s Share of Excess Pension Liabilities as of February 29, 2008

Federal Requirements

The methodology for determining the Federal Government’s share of excess pension liabilities is
addressed by CAS 413.50(c)(12)(vi), which states:

       The Government’s share of the adjustment amount determined for a segment shall
       be the product of the adjustment amount and a fraction. The adjustment amount
       shall be reduced for any excise tax imposed upon assets withdrawn from the
       funding agency of a qualified pension plan. The numerator of such fraction shall
       be the sum of the pension plan costs allocated to all contracts and subcontracts
       (including Foreign Military Sales) subject to this Standard during a period of
       years representative of the Government’s participation in the pension plan. The
       denominator of such fraction shall be the total pension costs assigned to cost
       accounting periods during those same years. This amount shall represent an
       adjustment of contract prices or cost allowance as appropriate. The adjustment
       may be recognized by modifying a single contract, several but not all contracts, or
       all contracts, or by use of any other suitable technique. [Emphasis added.]

Medicare’s Share of the Excess Medicare Segment Pension Liabilities Overstated

Kansas did not comply with the Medicare contracts in determining Medicare’s share of the
excess pension liabilities associated with the termination of the Medicare contracts as of

                                                8
February 29, 2008. Kansas calculated $2,706,283 as Medicare’s share of the Medicare segment
excess pension liabilities as of February 29, 2008; however, we determined that Medicare’s share
of the Medicare segment excess pension liabilities was $1,864,238. The overstatement occurred
because Kansas (a) overstated the Medicare segment’s excess pension liabilities (as discussed
above) and (b) did not compute the aggregate Medicare percentage in accordance with the CAS.
Therefore, Kansas overstated Medicare’s share of the Medicare segment excess pension
liabilities by $842,045.

In accordance with CAS 413.50(c)(12)(vi), we calculated the aggregate Medicare percentage
using the Medicare segment pension costs developed during the prior pension cost claimed
(A-07-94-01105) and current pension cost claimed (A-07-09-00309) audits. Appendix C shows
our calculation of the Medicare segment’s aggregate Medicare percentage; Table 3 shows our
calculation of Medicare’s share of the excess liabilities.

          Table: 3 Calculation of Medicare's Share of the Excess Medicare Segment
                                      Pension Liabilities
                          Excess Medicare          Aggregate        Excess Liabilities
                         Segment Liabilities        Medicare         Attributable to
                                  (A)            Percentage (B)     Medicare (A x B)

       Per OIG                      $1,903,255                97.95%             $1,864,238
       Per Kansas                    2,706,283               100.00%              2,706,283
          Difference                                                             ($842,045)

RECOMMENDATIONS

We recommend that Kansas:

   •     increase Medicare segment pension assets as of February 29, 2008, by $382,755 and
         recognize $9,467,977 as the Medicare segment pension assets;

   •     increase its total company pension assets as of February 29, 2008, by $15,000,000 and
         recognize $183,793,500 as the total company pension assets; and

   •     decrease Medicare’s share of the Medicare segment excess pension liabilities by
         $842,045 and submit for reimbursement $1,864,238 as Medicare’s share of the excess
         pension liabilities due to the segment closing calculation.

AUDITEE COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Kansas concurred with the first and second
recommendations; however, it disagreed with our third recommendation. A summary of
Kansas’s comments and our response follows. Kansas’s comments are included in their entirety
as Appendix D.


                                                 9
After reviewing Kansas’s comments, we made minor revisions to the calculation of the Medicare
segment excess pension liabilities and the Medicare segment pension assets; however, we
disagreed with Kansas’s comments regarding both the calculation of the Medicare’s share of the
excess Medicare segment pension liabilities and the segment closing date. Accordingly, we
maintain that our findings and recommendations, as modified, are valid.

Excess Medicare Segment Pension Liabilities

Auditee Comments

Kansas stated that the Medicare segment’s excess pension liabilities should be reduced by
$41,404 to $802,541. Specifically, Kansas stated that the Employee Retirement Income Security
Act Funding Standard Account plan amendment included both the IRS limits and the pre-
retirement death benefit amendment; however, only the pre-retirement death benefit amendment
should, according to Kansas, have been measured. Kansas also said that using the ratio of the
Medicare segment accrued liabilities to the total company accrued liabilities would be a better
ratio to allocate the plan amendment to the Medicare segment. As part of its written comments,
Kansas provided the actual amount of the plan amendment associated with the pre-retirement
death benefit only.

Office of Inspector General Response

We agree that only the pre-retirement death benefit was required to be prorated for the segment
closing calculation; however, during the course of the audit, the best available information for
this plan amendment was in the valuation report, which combined the IRS compensation limit
increases and the pre-retirement death benefit amendment.

As part of its written comments, Kansas provided the actual amount of the plan amendment
associated with the Medicare segment for the pre-retirement death benefit. We accepted this
figure and revised our calculations to incorporate the new plan amendment amount for the
Medicare segment. Furthermore, during our review of Kansas’s comments, we identified a
discrepancy in the Medicare segment pension assets. We have revised the dollar amounts in the
relevant findings and in our first and third recommendations to reflect both the information
provided by Kansas that we accepted and our correction of the discrepancy in the Medicare
segment pension assets.

Calculation of Medicare’s Share of the Medicare Segment Excess Pension Liabilities

Auditee Comments

Kansas stated that the difference between Kansas’s and our calculation of Medicare’s share of
the excess liabilities should be $843,945 (which, after application of the revisions discussed just
above, equates to $803,028) as shown in Appendix B not $882,123 (which, after application of
the revisions discussed just above, equates to $842,045). Kansas said that the more accurate
calculation of the difference between Kansas’s and our calculation of Medicare’s share of the



                                                10
excess liabilities would be $802,541, a dollar amount which reflects Kansas’s calculation of
Medicare’s share of the Medicare segment excess pension liabilities as 100 percent.

Office of Inspector General Response

We disagree with Kansas that $802,541 (which, after application of the revisions discussed just
above, equates to $803,028) is the difference in between Kansas’s and our calculation of
Medicare’s share of the Medicare segment excess pension liabilities. Although Kansas
computed Medicare’s share of the Medicare segment excess pension liabilities as 100 percent,
we determined that Medicare share’s of the Medicare segment excess pension liabilities was only
97.95 percent. Accordingly, we calculated that Medicare’s share of the Medicare segment
excess pension liabilities was $1,864,238, a difference of $842,045 from Kansas’s calculation.
We calculated Medicare’s share of the Medicare segment excess pension liabilities in accordance
with the CAS. Therefore, we maintain that our finding and recommendation, as modified in
accordance with our earlier discussion, are valid.

Segment Closing Date

Auditee Comments

Kansas said that it believes that using a date of February 29, 2008, to perform the segment
closing adjustment resulted in an inequitable calculation of Medicare’s share of excess pension
liabilities. Kansas stated that CAS section 413-50(c)(12)(iii) provides that if the use of the
contract termination date results in an “inequitable calculation, the contracting parties shall agree
on an appropriate date.”

Office of Inspector General Response

We disagree with Kansas’s assertion that the use of February 29, 2008, as the contract closing
date is not in compliance with the CAS because it results in an inequitable calculation. Kansas’s
Medicare contract was terminated and operations ended as of February 29, 2008. Kansas’s
assertion that CAS 413.50(c)(12)(iii) requires the Government to recognize factors beyond the
accounting period in which the Medicare operations ceased is therefore incorrect. The purpose
of the segment closing adjustment is to ensure that the Government contributed its fair share to
the pension plan, not to compensate for future fluctuations in the market. Furthermore, Kansas
prepared and provided us with its segment closing calculation as of February 29, 2008—the
same contract closing date we used. Therefore, nothing in Kansas’s written comments caused us
to change our finding and recommendation with respect to the segment closing date.




                                                 11
APPENDIXES
                                                                                                          Page 1 of 4

                 APPENDIX A: STATEMENT OF MARKET VALUE OF PENSION ASSETS 

                           FOR BLUE CROSS BLUE SHIELD OF KANSAS 

                     FOR THE PERIOD JANUARY 1, 1993, TO FEBRUARY 29, 2008 


             Description       I        I   Total Company      I   "Other" Segment     I   Medicare Segment
                                        I                      I                       I
Assets January 1,1993              11           $32,151,373    I        $27,619,857    I         $4,531,516

Prepayment Credits
Contributions                      21             2,763,827 °                     °
                                                                          2,102,443                 661,384°
Earnings                           31             3,257,552               2,798,422                 459 ,130
Benefit Payments                   41            (1,548,815)             (1,448,697)               (100,118)
Expenses                           51              (227,801)               (195,694                 (32,107)
Transfers                          61                                       (76,304                  76,304
                                                            °
Assets January 1,1994                           $36,396,136    I        $30,800,027    I         $5,596,109

Prepayment Credits                 71
                                                  3,301,750 °                     °
                                                                          3,301,750                        °
Contributions
Earnings                                            218,598                 184,987                  33,611°
Benefit Payments                                 (2,931,258)             (2,843,427)                (87,831)
Expenses                                           (182,303)               (154,273)                (28,030)
Transfers                                                                   369,422                (369,422)
                                                            °
Assets January 1,1995                           $36,802,923    I        $31,658,486    I         $5,144,437

Prepayment Credits                                                         (321,953)                321,953
                                                  4,841,435 °             4,841,435
Contributions
Earnings                                          9,858,280               8,480,256                        °
                                                                                                   1,378,024
Benefit Payments                                 (1,201,140)             (1,151,314)                 (49 ,826)
Expenses                                           (177,009)               (152,266)                 (24,743)
Transfers                                                                   320,553                 (320,553)
                                                            °
Assets January 1,1996                           $50,124,489    I        $43,675,197    I         $6,449,292

Prepayment Credits                                                         (515,824                 515,824
Contributions                                     3,439843  °             3,439,843
Earnings                                          7,679,273               6,694,226                        °
                                                                                                     985,047
Benefit Payments                                 (3,277,343)             (1,819,446)              (1,457,897
Expenses                                           (238,174                (207,623                  (30,551
Transfers                                                                   467,999                 (467,999)
                                                            °
Assets January 1,1997                           $57,728,088    I        $51,734,372    I         $5,993,716

                                                                           (406,441)                406,441
PrepaJIDent Credits
Contributions                                       950,670 °               950,670
Earnings                                         11,607,644              10,317,477                        °
                                                                                                   1,290,167
Benefit Pay!!:!ents                              (2,987,833)             (2,727,463)                (260,370)
Ex~nses                                            (271,025)               (240,901)                 (30,124
Transfers                                                                   568,128                 (568,128
                                                            °
Assets January 1,1998                           $67,027,544    I        $60,195,842    I         $6,831,702
                                                               I                       I
                                                                                                  Page 2 of 4


             Description   I   I   Total Company       I   "Other" Segment      I   Medicare Segment
                                                   1                        1
Assets January 1,1998                  $67,027,544 1            $60,195,842 1             $6,831,702

Prepayment Credits
Contributions                                      °                       °                        °
Earnings                                10,415,267 °              9,341,570°                        °
                                                                                            1,073,697
Benefit Payments                        (4,967,279               (4,611,379)                 (355,900)
Expenses                                  (366,948                 (329,120)                  (37,828)
Transfers                                                            25,225                   (25 ,225
                                                   °
Assets January 1,1999                  $72,1 08,584 1           $64,622,138 1             $7,486,446

Prepayment Credits                                                  (44,898)                   44,898
Contributions                              738,484 °                716,571                    21,913
Earnings                                11,772,892               10,543,129                 1,229,763
Benefit Payments                        (3,537,987)              (3,172,122                  (365,865)
Expenses                                  (327,922)                (293,668                   (34,254)
Transfers                                                           446 ,024                 (446,024)
                                                   °
Assets January 1, 2000                 $80,754,051 1            $72,817,174 1             $7,936,877

Prepayment Credits                                                     (992                       992
Contributions                              141,267 °                 17,235                  124,032
Earnings                                (3,315,274               (2,987,986                 (327,288
Benefit Payments                        (3,009,780)              (2,761,784                 (247,996
Expenses                                  (455,172)                (410,23                   (44,935
Transfers                                                           151,493                 (151 ,493)
                                                   °
Assets January 1, 2001                 $74,115,092 1            $66,824,903 1             $7,290,189

                                                                         (10)                     10
Prepayment Credits
Contributions                           20,157,250 °             19,606,270                  550,980
Earnings                                (3,904,612)              (3,524,579                 (380,033)
Benefit Pay!!:!ents                     (4,056,753)              (3,747,383                 (309,370)
Expenses                                  (378,777                 (341,911                  (36,866
Transfers                                                          (745,400)                 745,400
                                                   °
Assets January 1, 2002                 $85,932,200 1            $78,071,890 1             $7,860,310

Prepayment Credits                                                 (684,598                  684,598
Contributions                           31 ,500,000°             31,500,000
Earnings                                (6,740,425)              (6,131 ,721)                       °
                                                                                             (608,704)
Benefit Payments                        (9,881,347)              (7,419 ,656)              (2,461,691)
Expenses                                   (312,612)               (284,381)                  (28,231)
Transfers                                                          (214,469)                  214,469
                                                   °
Assets January 1, 2003                $100,497,816 1            $94,837,065 1             $5,660,751
                                                       1                        1
                                                                                                 Page 3 of 4


             Description   I   I   Total Company      I   "Other" Segment     I   Medicare Segment
                                                      I                       I
Assets January 1, 2003                $100,497,816    I        $94,837,065    I         $5,660,751

Prepayment Credits                                              (1,312,053)               1,312,053
Contributions                           35,100,000 °            35,100,000
Earnings                                16,953,640              15,780,052                1,173,588°
Benefit Payments                       (11,259,790             (10,448,330)                (811,460)
Expenses                                  (403,512                (375,580)                 (27,932)
Transfers                                                        1,123,122               (1,123 ,122
                                                   °
Assets January 1, 2004                $140,888,154    I       $134,704,276    I         $6,183,878

Prepayment Credits                                              (1,282,902)               1,282,902
                                        16,000,000 °            16,000,000
Contributions
Earnings                                13,626,625              12,897,811                 728,814 °
Benefit Payments                        (8,384,466)             (8,073,152                (311,314)
Expenses                                  (566,053)               (535,778                 (30,275)
Transfers                                                           13,882                 (13,882)
                                                   °
Assets January 1, 2005                $161,564,260    I       $153,724,137    I         $7,840,123

Prepayment Credits                                              (1,570,264)               1,570,264
                                        13,000,000 °            13,000,000
Contributions
Earnings                                11,963,123              11,298,832                  664,291°
Benefit Payments                       (11,984,506)            (10,441,014               (1,543,492)
Expenses                                  (575,412)               (543,460                  (31,952)
Transfers                                                           72,611                  (72 ,611)
                                                   °
Assets January 1, 2006                $173,967,465    I       $165,540,842    I         $8,426,623

                                                                (1,839,353)               1,839,353
Prepayment Credits
Contributions                            7,000,000 °             7,000,000
Earnings                                20,712,350              19,467,287                1,245,063°
Benefit Pay!!:!ents                    (15,250,563)            (14,716,973                 (533,590)
Expenses                                  (600 989                (564,862                  (36,127)
Transfers                                                          539,360                 (539,360
                                                   °
Assets January 1, 2007                $185,828,263    I       $175,426,301    I        $10,401,962

Prepayment Credits                                              (1,917,123                1,917,123
Contributions                           15,000,000 °            15,000,000
Earnings                                13,693,734              12,830,767                  862,967°
Benefit Payments                       (19,455,678)            (17,012,904)              (2,442,774)
Expenses                                  (756,277)               (708,617)                 (47,660)
Transfers                                                        1,047,630               (1,047,630)
                                                   °
Assets January 1, 2008                $194,310,042    I       $184,666,054    I         $9,643,988
                                                      I                       I
                                                                                                                                   Page 4 of 4



                   Description                 1        1    Total Company         1   "Other" Segment       I   Medicare Segment
                                                                                   I                         I
     Assets January 1, 2008                                      $194,310,042      I        $184,666,054     I            $9,643,988

     Prepayment Credits                                                                          (292,100)                    292,100 

     Contributions 
                                                          °
     Earnings                                                                 °
                                                                     (9,023,211)                         °
                                                                                               (8,560,145)                   (463,066)  °

     Benefit Payments                                                (1,395,024                (1,395,024)
     Expenses                                                           (98,307                   (93,262)                     (5,045) 
°

     Transfers 

                                                                              °	                         °                              °

     Assets February 29,2008                                     $183,793,500 I             $174,325,523 I                $9,467,977
     Per Kansas                                    81            $168,793,500 I             $159,708,278 I                $9,085,222
     Asset Variance                                91             $15,000,000 1             ($14,617,245) 1                ($382,755)
                                                        I                          1                         1

FOOTNOTES

 1L We determined the Medicare segment pension assets as of January 1,   1993, based upon our prior segmentation
     audit (A-07-94-00804). The arnOllllts shown for the "Other" segment represent the difference between the Total Company
     and the Medicare segment. All pension assets are shown at market value.

 2J. We obtained Total Company contribution amOllllts from the actuarial valuation reports and Department of Laboriintemal
     Revenue Service (DOL/IRS) Forms 5500. We allocated Total Company contributions to the Medicare segment based on the
     ratio of the Medicare segment fllllding target divided by the Total Company fllllding target. Contributions in excess of the
     fllllding targets were treated as prepayment credits and accollllted for in the "Other" segment lllltil needed to flllld pension
     costs in the future .

 .li We obtained investment earnings from actuarial valuation reports.    We allocated investment earnings based on the market
     value of Medicare assets at the beginning of the plan year after adjustments for prepayment credits and participant transfers.
     For years starting with 1996, we allocated investment earnings based on the ratio of the segment's weighted average value
     (VIA V) of assets to total company WAV of assets as required by the Cost Accollllting Standards (CAS) .

 .:U We based the Medicare segment's benefit payments on actual payments to Medicare retirees. We obtained the benefit
     payments from documents provided by Blue Cross Blue Shield of Kansas (Kansas).

 ~   We allocated administrative expenses to the Medicare segment in proportion to investment earnings.

 QL 	 We identified participant transfers between segments by comparing valuation data files provided by Kansas. For plan years
     prior to 1996, our transfer adjustment considered each participant's actuarial liability and the fimding level of the segment
     from which the participant transferred. For plan years starting with 1996, asset transfers were equal to the actuarial liability
     determined llllder the accrued benefit cost method in accordance with the CAS.

 1!.. Prepayment credits represent fllllds available to satisfy future
                                                                    fllllding requirements and are applied to future fimding
     requirements before current year contributions in order to reduce interest costs to the Federal Government. Prepayment
     credits are transferred to the Medicare segment as needed to cover fimding requirements.

 ~   We obtained total asset amollllts as of February 29,2008, from documents prepared by Kansas's actuarial consulting firm .

 .2L The asset variance represents the difference between our calculation of Medicare segment pension assets and Kansas's
     calculation of the Medicare segment pension assets.
                APPENDIX B: EXCESS MEDICARE SEGMENT PENSION LIABILITIES

                                                                         PerOIG        Per Kansas      Difference

  Medicare segment pension assets as of February 29, 2008        1/     $9,467,490      $9,085,222         382,268
  Adjustment to Medicare segment pension assets:
    Unallowable Unfunded Pension Costs                           2/        257,220               0         257,220
  Adjusted Medicare segment pension assets                               9,724,710       9,085,222         639,488

  Accrued Actuarial Liabilities as of February 29,2008           3/     11,791,505      11,791,505                0
  Adjustment to Accrued Actuarial Liabilities:                   4/
    Plan Amendment                                               5/       (204,457)              0         204,457
  Adjusted Actuarial Accrued Liabilities                                11,587,048      11,791,505         204,457
  Medicare Segment Excess Liabilities                            6/    ($1,862,338)    ($2,706,283)       $843,945

FOOTNOTES

1L We obtained the final market value of Medicare segment pension assets from Appendix A

2/ Cost Accounting Standard (CAS) 413-50(c )(12)(ii) requires that the market value ofthe assets be increased by
   the current value of any unfunded actuarial liability separately identified and maintained in accordance with
   9904412-50(a)(2).

3/ The accrued actuarial liabilities included lump sums paid to participants in 2008 plus the remaining Medicare
   segment participants valued as inactive on January I, 2008, data file rolled forward to February 29, 2008.

4/ CAS 413-50(cXI2)(iv) requires that pension plan improvements adopted within 60 months ofthe date ofthe
   event (plan termination), which increase the actuarial accrued liability, shall be recognized on a prorated basis
   using the number of months that the date of adoption preceded the event date.

5/ Plan amendment on January I, 2006, eliminated the participant charge for preretirement death benefits for
   active participants.

6/ We calculated the Medicare segment excess liabilities due to the termination of the Medicare contract based
   upon the required adjustments. The Medicare segment excess liabilities represent the adjusted final market
   value of assets less the adjusted accrued actuarial liability.
                 APPENDIX C: CALCULATION OF 

               AGGREGATE MEDICARE PERCENTAGE 


                Medicare Segment 
       Total Medicare 
  Medicare's 

Fiscal Year 
      Pension Costs 
      Segment Pension 
 Aggregate % 

     11 
     Charged to Medicare (A) 
    Costs (B) 
      (AlB) 21
   1991 
                   $148,293             $154,569
   1992 
                     252,201             260,754
   1993 
                     320,151             328,293
   1994 
                     452,358             489,883
   1995 
                     397,131             438,480
   1996 
                     435,596             488,172
   1997 
                     407,913             425,752
   1998 
                      95,835              98,932
   1999 
                           0                   0
   2000 
                      27,729              28,598
   2001 
                     404,334             415,981
   2002 
                     631,515             649,008
   2003 
                   1,135,290           1,155,276
   2004 
                   1,280,594           1,290,271
   2005 
                   1,497,455           1,498,504
   2006 
                   1,763,656           1,772,162
   2007 
                   1,894,536           1,897,762
   2008 
                     770,181             771,415
   Total 
                $11,914,768         $12,163,812    97.95%

11 	 The aggregate percentage was based on the audited pension costs as
  detennined during the pension audits related to the Kansas Medicare
  segment. The infonnation for fiscal years (FY) 1991 - 1993 was obtained
  during our prior audit (A-07-94-01105). The infonnation for FYs 1994­
  2008 was obtained during the current review (A-07-09-00309).

21 	 We calculated the aggregate Medicare percentage by dividing the Medicare
  segment pension costs charged to Medicare (numerator) by the total
  Medicare segment pension costs (denominator) pursuant to Cost Accounting
  Standard 413.
                                                                                                         Pagelof3



                   APPENDIX D: AUDITEE COMMENTS 



                                         lB3SW Topck. Booltv.rd            In Topda. (85) 191·7000
               BlueCross                 TOJl<'ko.. !(o n .., 66629-0001   In K,ns:a - (800) ~32.(1216
               BlueSh.ie ld 

               01' Kansas' 





March 29, 2010


Report Number: A-07-09-00308

Patrick J. Cogley
Regional Inspector General
  For Audit Services
Department of Health & Human Services
Region VI!
Room 0429
60 I East 1ih Street
Kansas City, Missouri 64106


Dear Mr. Cogley:

Enclosed is the Bille Cross and Blue Shield of Kansas (BCBSKS) response to the U.S.
Department of Health & Human Services, Office of Inspector General (OIG), draft report
entitled Review of the Qllalified Pension Plan at Bille Cross and Bille Shield of Kansas, a
Terminated Medicare ContraclOr,for Ihe Period January J, 199310 February 29, 2008.

Appendix B of the draft report reflects the Medicare Segment Excess Liabilities per DIG's
calculation as $1 ,862,338, with the difference from BCBSKS' calculation reflected as $843 ,945.
[n the Summary of Findings on page ii, this amount is referenced as $1 ,824,160 with the
difference from BCB$KS' calculation being refe renced as S882,123. We believe this is a
misprint as wc find no support for the numbers included in the Summary of Findings.

The following are the OIO's findings wi th BCBSKS's response:

OIG Finding: 	 Increase Medicare segment pension assets as of February 29, 2008, by $382,268
               and recognize $9,467,490 as the Medicare segment pension assets.

BCBSKS Response:      We concur with this finding.

DIG Finding: 	 Increase its total company pension assets as of February 29, 2008, by SI5.000,000
               and recognize $ 183.793,500 as the total company pension assets.

DCBSKS Response:      We concur with this finding.
                                                                                                         Page2of3




P.uic~ J COs'e} 

March 29. 2010 

Pag. Two




DIG Finding: 	 Decrease Medicare's share of the Medicare segment excess pension liabilities by
               S882,123 and submit for reimburscmcnt S 1,824, 160 as Medicare's share of the
               excess liabilities due to the segment closing calculation.

BCBSKS Response: 	 BCBSKS believes this difference should be reduced by $41.404 to
                   802,541 (Sec second paragraph. we believe S882.123 should be
                   S843,945). I3CI3SKS, in consultation with and expertise provided by J.P.
                   Morgan pension actuarial consultants, believes the 0 10 calculation of
                   Medicare's share of the Medicare segment excess pension liabi lities shown
                   in Appendix B is not based on the most accurate information available.
                   We believe the more accurate calculation reflects the difference as
                   $802,541. The attachment provides rationale for our more accurate
                   calculation and the shortcomings of the 0[0 calculation.

I3CBSKS believes using February 29, 2008 resul ts in an inequitable calculation of Medicare's
share of the excess pension liabilities. The Cost Accounting Standards section 41 ).50(c)(12)(iii)
provides that if the use of the contract termination date results in an" in equitable calculation, the
contracting parties shall agree on an appropriate date." BC BSKS holds that the contract
termination dale does in fact result in an inequitable calculation. BCBSKS reserves the right to
request consideration of this inequity as part of the resolution of contract proceeding in regards
to contract termination funding.

We wish to express our appreciation for the professional manner in which your audit team
conducted this audit. Feel free to contact my office (785-291-8893) if you have questions or
concerns in regards to our response.

Sincerely,


£~jJ/~
Ronald D. Simmons 

Controller 

                                                                                              Page30f3




                                          Medicare Audit Number: A-07-09-00308
                                                                March 29, 2010


Medicare's Share of th e Medica re Segment Exc ess Pension Liabilities



BCBSKS More Accurate Alternative Calculation (as prepared by J.P. Morgan)

   • 	 matched the DIG's overall Actuarial Accrued liability (AAL) as of January 1, 2006
       by including partiCipants in department codes 862 and 863 ($16,570,431)

   • 	 ran this updated group through J.P. Morg~n ' s valuation system to get the AAL as
       of January 1, 2006 prior to reflecting the plan amendment eliminating the
       participant charge for pre-retirement death benefits ($16,282,690)

   • 	 applied the proration of (34/60) to get the revised adjustment amount ($163,053
       :;: $287.741 x (34/60»




Issues with DIG Calculation

   • 	 the ERISA FSA plan amendment base of $2 ,928,231 included both the impact of
       changes in IRS limits and the pre-retirement death benefit amendment; only the
       impact of the pre-retirement death benefit amendment should have been
       measured

   • 	 the resulting plan amendment impact was then allocated to the Medicare
       segment based on the ratio of the unamortized unfunded liabilities under CAS; a
       ratio based on the Medicare segment AAl to the total AAl may have worked
       better here

   • 	 it appears the proration of (34/60) was applied twice (first to get the overall plan
       amendment base amount and then again when allocating it to the Medicare
       segment
